No. 20-1318
IN THE
SUPREME COURT OF THE UNITED STATES

VINCENT W. SHACK,
Petitioner,
v.
NBC UNIVERSAL MEDIA, LLC,
IMG WORLDWIDE, INC.,
LADIES PROFESSIONAL GOLF ASSOCIATION, and
SAMSUNG ELECTRONICS AMERICA INC.
Respondents,

ON PETITION FOR WRIT OF CERTIORI TO THE
UNITED STATES DISTRICT COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA

AMENDED CERTIFICATE OF SERVICE

I, Paul K. Schrieffer, counsel for Respondent NBC Universal Media,
LLC, and a member of the Bar of this Court, certify that on May 3, 2021, the
original unbound of the foregoing Brief in Opposition to the Petition for a
Writ of Certiorari and the Certificate of Compliance in Shack v. NBC
Universal Media LLC, et al., was served via U.S. Postal Service First Class

mail and electronic mail, addressed as shown below to Petitioner and
Respondents, and no electronic message or other indication that the
transmission was unsuccessful was received within a reasonable time after
the transmission:

Vincent W. Shack
vgreengolf@aol.com
64337 Doral Drive
Desert Hot Springs, CA. 92240
Telephone: (760) 218-9777
Petitioner
Lawrence Ramsey, Esq.
Larry.Ramsey@bowmanandbrooke.com

Bowman and Brooke, LLP
970 West 190th Street, Suite 700
Torrance, California 90502
Telephone: (310) 380-6518
Attorneys for Respondent,
Samsung Electronics America Inc.
Robert Salley, Esq.

RSalley@tharpehowell.com
Tharpe & Howell, LLP
15250 Ventura Boulevard, Ninth Floor
Sherman Oaks, California 91403
Telephone: (818) 205-9955
Attorneys for Respondents,
IMG Worldwide, Inc. and Ladies Professional Golf Association

I further certify that all parties required to be served have been
served. I declare under penalty of perjury under the laws of the United
States of America that the foregoing is true and correct. This Certificate is
executed on May 3, 2021.

/s/ Paul K. Schrieffer
Paul K. Schrieffer
pks@pksllp.com
P.K. SCHRIEFFER LLP
100 N. Barranca Street
Suite 1100
West Covina, California 91791
Telephone: (626) 373-2444
Facsimile: (626) 974-8403
Attorney for Respondent,
NBC Universal Media, LLC

